                                 Office of Inspector General
                                Corporation for National and
                                         Community Service




    AUDIT OF CORPORATION FOR NATIONAL AND
   COMMUNITY SERVICE GRANTS AWARDED TO THE
          NEW MEXICO COMMISSION FOR
           COMMUNITY VOLUNTEERISM

              OIG REPORT NUMBER 06-26




                        Prepared by:

              COTTON and COMPANY, LLP
                   635 Slaters Lane
               Alexandria, Virginia 22314




This report was issued to Corporation management on May 31, 2006. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later
than November 30, 2006, and complete its corrective actions by May 31, 2007.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                Audit of Corporation for National and Community Service
                                 Grants Awarded to the
                 New Mexico Commission for Community Volunteerism
                                   Audit Report 06-26


OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Cotton and Company (Cotton) to perform an incurred-cost audit
of grants awarded to the New Mexico Commission for Community Volunteerism
(Commission).

Federal costs claimed by the Commission during the audit period totaled $3,453,178. Of
this amount, the auditors questioned $111,833 of grant costs and related education awards
of $54,398. The auditors also identified four issues of noncompliance with Federal laws
and grant provisions, and two internal control matters, one of which is considered a
material weakness.

In its response to the draft audit report, the Commission documented its corrective actions
and improvements to internal control, but it did not agree with a portion of the questioned
costs.

The OIG reviewed Cotton’s report and related documentation and made necessary
inquiries of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the Commission’s financial statements,
conclusions about the effectiveness of internal control or conclusions on compliance with
laws and regulations. Cotton is responsible for the attached auditor’s report dated
December 2, 2005, and the conclusions expressed in the report. However, our review
disclosed no instances where Cotton did not comply, in all material respects, with
generally accepted government auditing standards.

The OIG provided officials of the Commission and the Corporation with a draft of this
report for review and comment. Their responses are included as Appendices A and B,
respectively.

This report is a matter of public record and its distribution is not limited.
                        OFFICE OF INSPECTOR GENERAL
   AUDIT OF CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS TO THE
             NEW MEXICO COMMISSION FOR COMMUNITY VOLUNTEERISM

                                                         CONTENTS

Section                                                                                                                  Page

Executive Summary ........................................................................................................... 1

Independent Auditors’ Report ............................................................................................ 4

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs .............................                               6

Schedule A: Families and Youth, Inc ............................................................................... 8

Schedule B: Rocky Mountain Youth Corps ...................................................................... 10

Schedule C: Rio Rancho Public Schools ........................................................................... 11

Schedule D: San Juan Service Corps ................................................................................. 14

Schedule E: Very Special Arts of New Mexico................................................................. 16

Independent Auditors’ Report on Compliance and Internal Control ................................. 18

Appendices

A: Commission’s Response to Audit Report
B: Corporation’s Response to Audit Report
                                   EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform an audit of costs claimed
by the New Mexico Commission for Community Volunteerism (Commission). Our audit
covered financial transactions, compliance, and internal control testing of Commission
awards.

I.    BACKGROUND

The Corporation supports a range of national and community service programs that provide
full-time and part-time opportunities for Americans to engage in service that fosters civic
responsibility, strengthens communities, and provides educational opportunities for those
who make a commitment to service. State commissions distribute funds to subgrantees that
administer programs while providing oversight, training, and technical assistance to
subgrantees.

The Commission, located in Albuquerque, has received AmeriCorps grant funds from the
Corporation since Program Year (PY) 1994-1995. It currently operates as part of the State of
New Mexico’s Children Youth and Families Department (CYFD). CYFD provides fiscal
management for Corporation grants.

II.   AUDIT SCOPE AND RESULTS

Cotton & Company performed an incurred-cost audit including financial transactions,
internal controls, and grant compliance related to the following Corporation awards to the
Commission:

 Program                            Award No.          Award Period         Audit Period
 Administrative Grant             04CAHNM001         01/01/04-12/31/06 01/01/04-06/30/05
 Professional Development and
    Training                       02PDSNM032        01/01/02-12/31/04 01/01/02-12/31/04
 Professional Development and
    Training                      05PTHNM001         01/01/05-12/31/07    01/01/05-06/30/05
 AmeriCorps State Competitive     00ASCNM032         10/01/00-09/30/03    10/01/02-09/30/03
 AmeriCorps State Competitive     03ACHNM001         09/11/03-09/10/06    09/11/03-03/31/05
 AmeriCorps State Formula         00ASFNM032         10/01/00-09/30/03    10/01/02-09/30/03
 AmeriCorps State Formula         03AFHNM002         09/01/03-08/31/06    09/01/03-03/31/05

The audit objectives were to determine if:

       •       the Commission’s financial reports to the Corporation presented financial
               award results fairly, and costs were allowable in accordance with award terms
               and conditions;


                                              1
       •        the Commission’s internal controls were adequate to safeguard Federal funds;
                and

       •        the Commission had adequate procedures and controls to ensure compliance
                with Federal laws, applicable regulations, and award conditions.

We conducted our audit tests between September 6, 2005, and December 2, 2005.

Cost Findings

The Commission claimed $3,453,178 in costs during our audit period, identified in Exhibit
A, Consolidated Schedule of Claimed and Questioned Costs. Of this amount, we questioned
$111,833 of costs, and related education awards of $54,398. The report includes a scope
limitation because, at the request of the OIG, we did not expand certain questioned costs
identified in the sample to the entire population of claimed costs. Except for identified
questioned costs and the effect on questioned costs if we would have expanded testing, costs
claimed by the Commission for the awards appear fairly stated and allowable in accordance
with award terms and conditions.

Costs questioned primarily relate to member eligibility and compliance issues, such as
citizenship or completion of background investigations, or costs claimed by the Commission
or subgrantee for which neither could provide supporting documentation. We also identified
costs relating to claimed match that were questioned for the same reasons as Federal share
costs questioned. These questioned costs are not identified in the schedules because they did
not result in unmet matching requirements, which would have affected the allowability of the
Federal costs.

Compliance and Internal Control Findings

We have also issued a report, titled Independent Auditors' Report on Compliance and
Internal Control, on our consideration of the Commission’s internal control and compliance
with laws and regulations. In that report, we identified four issues of noncompliance
(Findings 1-4) that are required to be reported under generally accepted government auditing
standards. We also identified two matters that affect the Commission’s internal control over
financial reporting and its operation (Findings 4 and 5). We consider Finding 5 to be a
material weakness. These issues are summarized below:

1.     The Commission did not have adequate procedures to ensure member eligibility.

2.     The Commission did not have adequate procedures to ensure that subgrantees
       documented member activities, and that member living allowances were proper.

3.     The Commission did not have adequate subgrantee monitoring procedures.




                                              2
4.     The Commission’s procedures to ensure compliance with all grant provisions were
       weak.

5.     The Commission’s financial management system was not adequate to account for and
       support all costs claimed.

III.   EXIT CONFERENCE AND RESOLUTION

An exit conference with Commission and Corporation representatives was held on January
11, 2006. Commission and Corporation responses to this draft report are included as
Appendices A and B, respectively. In addition, we have included our summary of the
Commission’s comments on compliance and internal control in that report. The majority of
the Commission’s responses document its corrective action or improvements to its internal
control. The Commission, however, does not believe that the questioned costs related to the
criminal background check requirements should be recouped by the Corporation since the
issue is related to compliance. The Corporation noted in its response that it will address all
findings when the final audit report is issued, but specifically commented on two compliance
findings.

In response to the finding of catch-up or lump-sum living allowance payments, the
Corporation stated that it clarified its language in September 2005. The Corporation also
stated that it anticipates allowing the Commission to use other Federal funds as the source of
required match.




                                              3
 December 2, 2005

 Office of Inspector General
 Corporation for National and Community Service


                               INDEPENDENT AUDITORS’ REPORT


 We have audited costs claimed by the New Mexico Commission for Community
 Volunteerism for Program Years (PYs) 2002-2003, 2003-2004, and 2004-2005 (through
 March 31, 2005) for the grants listed below. These costs are presented in Exhibit A,
 Consolidated Schedule of Claimed and Questioned Costs, and are the responsibility of
 Commission management. Our responsibility is to express an opinion on these costs based
 on our audit.

Program                            Award No.          Award Period            Audit Period
Administrative Grant             04CAHNM001         01/01/04-12/31/06      01/01/04-06/30/05
Professional Development and
   Training (PDAT)                02PDSNM032        01/01/02-12/31/04      01/01/02-12/31/04
Professional Development and
   Training                      05PTHNM001         01/01/05-12/31/07      01/01/05-06/30/05
AmeriCorps Competitive           00ASCNM032         10/01/00-09/30/03      10/01/02-09/30/03
AmeriCorps Competitive           03ACHNM001         09/11/03-09/10/06      09/11/03-03/31/05
AmeriCorps Formula               00ASFNM032         10/01/00-09/30/03      10/01/02-09/30/03
AmeriCorps Formula               03AFHNM002         09/01/03-08/31/06      09/01/03-03/31/05

 Except as described below, we conducted our audit in accordance with audit standards
 generally accepted in the United States of America and generally accepted government
 auditing standards. These standards require that we plan and perform the audit to obtain
 reasonable assurance about whether financial schedules are free of material misstatement.
 An audit includes examining, on a test basis, evidence supporting amounts and disclosures in
 Exhibit A. An audit also includes assessing accounting principles used and significant
 estimates made by management, as well as evaluating overall financial presentation. We
 believe that our audit provides a reasonable basis for our opinion on incurred costs.


                                              4
As noted above, our audit included examining transactions and member records on a test
basis. During our testing, we identified a number of questioned costs due to member
compliance issues. Codification of Statements on Auditing Standards, AU § 326, requires
auditors to gain sufficient competent evidential matter to identify and properly value all
questioned costs. At the OIG’s request, we did not expand testing to the remaining members,
which would identify all questioned costs and related education awards.

Exhibit A is intended to present allowable costs incurred under the awards in accordance
with applicable Office of Management and Budget (OMB) circulars and award terms and
conditions. Exhibit A is not intended to be a complete presentation of the Commission’s
financial position in conformity with accounting principles generally accepted in the United
States of America. This schedule also identifies certain questioned education awards. These
awards are not funded by Corporation grants and thus are not included as claimed costs. As
part of our audit, however, we determined the effect of all member eligibility issues on these
awards.

In our opinion, except for questioned costs noted in Exhibit A, and the effect on questioned
costs had we expanded testing as discussed above, the financial schedule presents fairly, in
all material respects, costs claimed for the grants in conformity with applicable OMB
Circulars and award terms and conditions.

In accordance with generally accepted government auditing standards, we have also issued a
report dated December 2, 2005, on our consideration of the Commission’s compliance and
internal control over laws and regulations. That report is an integral part of an audit
performed in accordance with generally accepted government auditing standards and should
be read in conjunction with this report in considering audit results.

This report is intended solely for the information and use of the OIG, the Corporation for
National and Community Service, the Commission and the U.S. Congress, and is not
intended to be and should not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Sam Hadley, CPA
Partner




                                              5
                                                                               EXHIBIT A


                    NEW MEXICO COMMISSION FOR COMMUNITY VOLUNTEERISM
                   CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS


                                       Federal Costs                Questioned
                                                                    Education
Award No.                 Awarded         Claimed      Questioned    Awards        Reference
04CAHNM001                 $321,682        $262,729
02PDSNM032                  274,075         274,075      $63,921                     Note 1
05PTHNM001                   95,000          35,722      (59,278)                    Note 2
00ASCNM032
  FYI                       471,199         369,453       15,644      $2,363       Schedule A
  Rocky Mountain            617,611         472,765        4,136       2,363       Schedule B
               Subtotal   $1,088,810       $842,218      $19,780      $4,726
00ASFNM032
  Rio Rancho               $334,800        $298,957      $40,653     $19,072       Schedule C
  San Juan                  111,597         105,765       11,459       9,450       Schedule D
  VSA                       102,662          98,084       11,449      10,450       Schedule E
  Others                    247,990         214,681            -           -
               Subtotal    $797,049        $717,487      $63,561     $38,972
03ACHNM001                $1,325,782       $805,366
03AFHNM002
  FYI                      $389,168        $228,153       $5,039      $1,250       Schedule A
  San Juan                  100,116          68,082       16,709       9,450       Schedule D
  VSA                        51,183          50,776        2,101                   Schedule E
  Others                    424,740         168,570            -           -
               Subtotal    $965,207        $515,581      $23,849     $10,700

Totals                    $4,867,605     $3,453,178     $111,833     $54,398




                                               6
1.   The Commission claimed $63,921 of costs related to the subsequent PDAT grant as
     discussed below:

     a.     The Commission claimed $95,000 of contract service expenses invoiced in
            February and April 2005. It allocated these costs to its older PDAT grant
            (Award 02PDSNM032), which expired on December 31, 2004. The
            Commission considered this allocation to be appropriate because the service
            contract was signed in December 2004 for work to be provided between
            December 10, 2004, and October 30, 2005. We questioned these claimed
            costs because the contract was in effect for only 21 days during the grant
            award period. These costs are allocable and allowable under the
            Commission’s subsequent PDAT grant (Award 05PTHNM001).

     b.     The Commission also claimed labor costs that were incurred between March
            and June 2005. These costs were incurred outside the grant award period and
            are not allowable to this grant, but are allocable and allowable to the
            subsequent PDAT grant. We questioned claimed labor costs of $4,643 from
            the older PDAT grant.

     c.     Finally, the Commission processed a journal entry in August 2005 for
            $35,722, originally charged to Award 02PDSNM032, and transferred this
            amount to the subsequent PDAT grant (Award 05PTHNM001). The transfer
            represented the amount the Commission charged to the older PDAT grant that
            exceeded that award amount. It did not represent specific transactions or
            expenditures.

     All costs charged to the older grant after December 31, 2004, totaling $99,643,
     represented questioned costs discussed above that were attributable to the subsequent
     grant. Therefore, we also questioned the journal entry that resulted in increased costs
     of $35,722, for net questioned costs of $63,921. OMB Circular A-87, Attachment A,
     C.1., Factors affecting the allowability of costs, states that a cost must be allocable to
     a Federal award to be allowable.

2.   As discussed in Note 1 above, we recommend that $63,921 from the older PDAT
     grant be questioned and charged to the Commission’s current PDAT award.
     However, because the PDAT grant award is $99,000, the recommended increase
     would exceed the awarded amount. Therefore, we recommended increased costs of
     $59,278, which brings total costs to the award ceiling.




                                             7
                                                                             SCHEDULE A



           NEW MEXICO COMMISSION FOR COMMUNITY VOLUNTEERISM
             SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS

                              FAMILIES AND YOUTH, INC.



                                                Federal Costs          Questioned
                           Program                                     Education
     Award No.              Years         Claimed      Questioned       Awards
     00ASCNM032            2002-2003     $369,453         $15,644         $2,363
     03AFHNM002            2003-2005     $228,153          $5,039         $1,250



                                                          Federal     Education
Reasons for Questioned Costs                               Costs       Awards       Notes
Lump-sum payments to members outside service period        $5,416                    1
Administrative costs claimed in excess of ceiling           6,173                    2
Unallowable unemployment insurance premiums                 2,482                    3
Member eligibility, no criminal background checks           5,423       $2,363       4
Unallowable healthcare for part-time members                   81                    5
Member eligibility, no parental consent                     1,108         1,250      6
Total Questioned Costs                                    $20,683       $3,613


1.    Families and Youth, Inc. (FYI) claimed $3,423 in PY 2002-2003 and $1,993 in PY
      2003-2004 for lump-sum payments to 17 of 25 members we sampled. FYI allowed
      members to be paid for two additional pay periods after their service was complete
      and to receive one payment prior to beginning service. All members were paid the
      same amount in total, but certain members received living allowances for periods
      during which they were not working.

      According to AmeriCorps Provisions (2002 ed.), Section B.11.b, Living Allowance
      Distribution, living allowances are designated to help members meet necessary living
      expenses incurred only while participating in the AmeriCorps Program. FYI
      provided lump-sum living allowance payments after service was completed to help



                                            8
     members transition to other jobs or to a second year in the program, and prior to
     beginning service to assist the members with potential moving expenses.

2.   FYI claimed administrative expenses of $5,184 for PY 2002-2003 and $989 for PY
     2003-2004 that exceeded the allowable administrative percentage. FYI claimed costs
     based on the budgeted amount rather than the allowable amount for this line item.

     According to AmeriCorps Provisions (2002 ed.), Section C.22.b, Administrative
     Costs, administrative costs cannot exceed five percent of total Corporation funds
     expended. FYI relied on WBRS (Web Based Reporting System) to identify errors,
     but it did not know if WBRS would identify excess costs. We questioned $6,173 that
     exceeded the allowable percentage.

3.   FYI claimed $1,533, $625 and $324 in PY 2002-2003, PY 2003-2004 and PY 2004-
     2005, respectively, for members’ unemployment insurance premiums.
     Unemployment insurance premium costs are unallowable in accordance with
     AmeriCorps Provisions (2002 ed.), Section B.11.d.iv., Unemployment Insurance,
     which states that grantees cannot charge such costs to grants unless mandated by
     State law. Programs are responsible for determining State requirements by consulting
     their respective State commissions, legal counsel, or applicable State agency.

     FYI stated that it had verbal instructions from the New Mexico Department of Labor
     to pay these premiums, but obtained no supporting documentation for this
     requirement. We questioned $2,482.

4.   FYI did not obtain required criminal background checks for two of our 25 sampled
     members who had substantial direct contact with children. It claimed $5,423 for
     living allowances and related member benefits for these members. AmeriCorps
     Provisions (2002 ed.), Section B.6.h, Eligibility, Recruitment and Selection, Criminal
     Record Checks, requires that programs with members who have substantial direct
     contact with children must conduct criminal record checks on these members as part
     of the screening process and maintain documentation consistent with State law. We
     questioned the claimed $5,423 living allowance and related member benefits, as well
     as $2,363 of earned education awards for these two members.

5.   FYI claimed $81 for healthcare coverage for one part-time member in PY 2002-2003.
     According to AmeriCorps Provisions (2002 ed.), Section B.11.e, Health Care
     Coverage, the Corporation does not cover healthcare costs for less than full-time
     members. FYI erroneously paid these healthcare costs because the member served 40
     hours a week for the period served. We questioned $81.

6.   FYI claimed $1,108 in PY 2003-2004 for living allowances and related member
     benefits for one member who was under 18 years of age at the start of service. The
     member had not provided written consent from a parent or legal guardian, as required
     by AmeriCorps Provisions (2003 ed.), Section B.6.g, Parental Consent. We
     questioned $1,108 and $1,250 of earned education award for this member.


                                            9
                                                                              SCHEDULE B


            NEW MEXICO COMMISSION FOR COMMUNITY VOLUNTEERISM
              SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS

                            ROCKY MOUNTAIN YOUTH CORPS



                                              Federal Costs             Questioned
                           Program                                      Education
      Award No.             Years         Claimed       Questioned       Awards
      00ASCNM032           2002-2003      $472,765        $4,136          $2,363
      03ACHNM001           2003-2005      $709,465


Rocky Mountain Youth Corps (RMYC) did not obtain the required criminal background
check for one member of our 54 sampled members who had substantial direct contact with
children. It claimed $4,136 for living allowance and related member benefits for this
member. AmeriCorps Provisions (2002 ed.), Section B.6.h, Eligibility, Recruitment and
Selection, Criminal Record Checks, requires that programs with members who have
substantial direct contact with children must conduct criminal record checks on these
members as part of the screening process and maintain documentation consistent with State
law. The member started the program after other members, and the criminal background
check was either not initiated or misplaced. We questioned the claimed living allowance of
$4,136, as well as $2,363 of earned education award for this member.




                                            10
                                                                              SCHEDULE C


            NEW MEXICO COMMISSION FOR COMMUNITY VOLUNTEERISM
              SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS

                              RIO RANCHO PUBLIC SCHOOLS

                                              Federal Costs            Questioned
                            Program                                    Education
     Award No.                Year        Claimed      Questioned       Award
     00ASFNM032             2002-2003     $298,957       $40,653         $19,072


Rio Rancho’s accounting records could not support claimed Federal or match costs, either
separately or in total. Documentation identified total incurred costs of $353,741, although
total Federal and match costs claimed were $394,765. We reviewed the subgrantee’s records
to identify total program costs incurred, determined total allowable program costs, and
applied AmeriCorps matching requirements to calculate the allowable Federal share of
program costs as follows:

                                                                     Categories
                                                     Category A         B-E         Note
 Total Program Costs Incurred                          $262,479        $91,262
 Less Questioned costs for:
  Member eligibility, no background checks               25,130                       1
  Member eligibility, no proof of citizenship             6,770                       2
  Members exceeded budget availability                    6,250                       3
    Unallowable match, paid with Federal funds                -         15,302        4
                                                        $38,150        $15,302
 Total Allowable Program Costs                         $224,329        $75,960
 Federal Share                                                85%            67%
 Total Allowable Federal Share                         190,680           50,893
 Costs Claimed                                         226,448          55,778
 Questioned Federal Costs                               $35,768         $4,885
 Education Awards:
  Member eligibility, no background checks              $10,735                       1
  Unsupported member service hours                        1,250                       5
  Unallowable member service hours                        7,087                       6
 Total Questioned Education Awards                      $19,072

                                             11
1.   Rio Rancho did not obtain the required criminal background checks for four of eight
     sampled members who had substantial direct contact with children. It claimed
     $25,130 for living allowances and related member benefits and $10,735 of earned
     education awards for these four members.

     AmeriCorps Provisions (2002 ed.), Section B.6.h, Eligibility, Recruitment and
     Selection, Criminal Record Checks, requires that programs with members who have
     substantial direct contact with children must conduct criminal record checks on these
     members as part of the screening process and maintain documentation consistent with
     State law. Rio Rancho did not obtain required criminal background checks for these
     members. We questioned Federal living allowances, match costs, and related
     member benefits of $25,130 and $10,735 of earned education award for these four
     members.

2.   Rio Rancho did not provide supporting documentation to verify U.S. citizenship or
     national status for two of eight sampled members. According to 45 CFR § 2522.200,
     What are the eligibility requirements for an AmeriCorps participant?, every
     AmeriCorps participant must be a citizen, national, or lawful permanent resident alien
     of the United States. Rio Rancho was not aware that a driver’s license and a Social
     Security card were not acceptable as a proof of citizenship. We questioned $6,770 of
     living allowances and related member benefits claimed for one member. The living
     allowance, related member benefits, and earned education award for the other
     member is questioned in Note 1, above.

3.   Rio Rancho claimed living allowances paid to five individuals who were not eligible
     for such allowances. Rio Rancho did not have enough available slots to register the
     five individuals as members and was unable to provide documentation to show that it
     received Corporation approval for additional enrollees. The PY 2002-2003
     AmeriCorps Program Director’s Handbook, How do I implement the new policy on
     over-enrollment, states that upon request and Corporation approval, grantees other
     than Education Award Programs may enroll up to 20 percent more than the member
     ceiling established in the grant award. We questioned $6,250 of living allowance and
     related member benefits paid to the five individuals.

4.   Rio Rancho used other Federal funds as the source of match for the AmeriCorps
     program without approval from the other Federal agency. According to 45 CFR
     §2541.240 (b)(3), Costs or contributions counted towards other Federal cost-sharing
     requirements, the costs or value of third-party in-kind contributions may not be
     applied toward satisfying a grant cost-sharing or matching requirement if they have
     been or will be applied to satisfying a cost-sharing or matching requirement of
     another Federal grant agreement, Federal procurement contract, or any other award of
     Federal funds. While typically unallowable, AmeriCorps application guidelines note
     that other Federal programs may be the source of match. The AmeriCorps program
     site, however, must obtain approval from that awarding agency. As a result, we
     questioned $15,302.


                                           12
5.   Rio Rancho uses time-and-attendance information in WBRS to track member status,
     which is the basis for paying education awards. Of the eight sampled members, hours
     reported in WBRS could not be supported with hours recorded on member time
     sheets for two members. The member file for one member was missing and no time
     sheets were available.

     AmeriCorps Provisions (2002 ed.), Section C.21.c.ii, Financial Management
     Provisions, Time and Attendance Records, requires that grantees maintain time-and-
     attendance records for all AmeriCorps members to document their eligibility for in-
     service and post-service benefits. As a result of differences between the hours
     recorded in WBRS and time sheet hours, these members did not meet the minimum
     number of hours required to earn an education award. We questioned the $1,250
     education award earned by one member. The education awards for the other two
     members have been questioned in Notes 1 and 2 above.

6.   Rio Rancho allowed members to participate in two different school programs at the
     same time. Members kept separate time sheets for each program. We noted that time
     recorded on several time sheets overlapped, thereby recording more total hours than
     actual hours worked. We reduced member hours for any time also recorded on time
     sheets for the other program. As a result of reducing the AmeriCorps time sheets for
     hours charged to another program, two members did not meet the minimum number
     of hours required to earn an education award. We questioned the $7,087 in education
     awards earned by these members.




                                          13
                                                                               SCHEDULE D


            NEW MEXICO COMMISSION FOR COMMUNITY VOLUNTEERISM
              SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS

                                SAN JUAN SERVICE CORPS



                                              Federal Costs             Questioned
                           Program                                      Education
       Award No.            Years         Claimed       Questioned       Awards
       00ASFNM032          2002-2003      $105,765        $11,459          $9,450
       03AFHNM002          2003-2005       $68,082        $16,709          $9,450



                                                      Federal     Education
     Reasons for Questioned Costs                      Costs       Awards        Note
     Member eligibility, no proof of citizenship     $17,988         $18,900        1
     Members exceeded budget availability              3,110               -        2
     Living allowance in excess of 85 percent          6,035               -        3
     Living allowance paid for prior program year      1,034               -        4
     Total Questioned Costs                          $28,167         $18,900


1.     San Juan Service Corps (San Juan) did not provide supporting documentation to
       verify U.S. citizenship or national status for six of ten sampled members. It claimed
       living allowances and benefits of $5,066 and education awards of $9,450 for two
       members in PY 2002-2003, and living allowances and benefits of $12,922 ($7,952 in
       PY 2003-2004 and $4,970 in PY 2004-2005) and education awards of $9,450 ($4,725
       in each PY) for an additional two members. According to 45 CFR § 2522.200, What
       are the eligibility requirements for an AmeriCorps participant?, every AmeriCorps
       participant must be a citizen, national, or lawful permanent resident alien of the
       United States. Due to an administrative error, San Juan did not follow its procedures
       to ensure that member files contained documentation to support proof of citizenship.
       We questioned living allowances and benefits of $17,988, and $18,900 in earned
       education awards.




                                            14
2.   San Juan claimed living allowances paid to five individuals who were not eligible for
     such allowances. San Juan did not have enough available slots to register the five
     individuals as members, and was unable to provide documentation to show that it
     received the Corporation’s approval for additional enrollees.

     The PY 2002-2003 AmeriCorps Program Director’s Handbook, How do I implement
     the new policy on over-enrollment, states that, upon request and Corporation
     approval, grantees other than Education Award Programs may enroll up to 20 percent
     more than the member ceiling established in the grant award. San Juan personnel
     stated that they had obtained approval from the Commission but they were unable to
     provide the documentation. We questioned $3,110.

3.   San Juan claimed $6,035 of member living allowances in PY 2002-2003 that
     exceeded the allowable Federal share. According to AmeriCorps Provisions (2002
     ed.), Section B.11, Living Allowances, programs that provide a living allowance
     exceeding the minimum amount stated in application guidelines must provide a
     grantee match for all funds over 85 percent of that minimum. San Juan calculated the
     85 percent minimum living allowance based on the aggregate, instead of by
     individual member, which resulted in over- and under-claims of living allowances.
     We questioned costs claimed for those members that exceeded 85 percent of the total
     living allowance for each member. We also allowed additional claimed costs for
     those members whose claimed costs were less than 85 percent, which resulted in
     questioned costs of $2,930. Of that amount, $(3,105) was questioned in Note 1 above,
     resulting in net questioned costs of $6,035.

4.   San Juan claimed $1,034 in living allowance in PY 2004-2005 for one PY 2003-2004
     member. OMB Circular A-21, Attachment C, Paragraph 4.a, Allocable costs, states
     that costs allocable under a sponsored agreement may not be shifted to other
     sponsored agreements to meet deficiencies caused by overruns or other fund
     considerations, avoid restrictions imposed by law or grant terms, or for other reasons
     of convenience. San Juan expended all of its awarded PY 2003-2004 Federal funds
     and did not claim the costs as match. We questioned $1,034.




                                           15
                                                                              SCHEDULE E


            NEW MEXICO COMMISSION FOR COMMUNITY VOLUNTEERISM
              SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS

                          VERY SPECIAL ARTS OF NEW MEXICO


                                              Federal Costs          Questioned
                           Program                                   Education
        Award No.           Years        Claimed      Questioned      Awards
        00ASFNM032         2002-2003       $98,084      $11,449       $10,450
        03AFHNM002         2003-2004       $50,776       $2,101
        03ACHNM001         2004-2005       $67,773



                                                     Federal      Education
     Reason for Questioned Costs                      Costs        Awards       Note
     Member eligibility, no proof of citizenship     $11,077        $4,725        1
     Unsupported member service hours                      -         5,725        2
     Lump-sum payments to members outside
     service period                                    2,473            -         3
     Total Questioned Costs                          $13,550       $10,450


1.    Very Special Arts of New Mexico (VSA) did not provide supporting documentation
      to verify U.S. citizenship or national status for one of the 19 sampled members.
      According to 45 CFR § 2522.200, What are the eligibility requirements for an
      AmeriCorps participant?, every AmeriCorps participant must be a citizen, national,
      or lawful permanent resident alien of the United States. VSA personnel thought that
      accepting a copy of a driver's license satisfied the citizenship requirement in most
      instances. We questioned $11,077 for living allowances and related member benefits
      paid to this member, and the $4,725 education award earned by the member.

2.    VSA time sheets inadequately supported member service hours reported in WBRS.
      Time sheets for two of the 19 sampled members from PY 2002-2003 did not support
      their service hours reported in WBRS. Time sheets also recorded less than the
      minimum hours required to earn education awards.




                                             16
     AmeriCorps Provisions (2002 ed.), Section C.21.c.ii., Financial Management
     Provisions, Time and Attendance Records, requires that grantees maintain time-and-
     attendance records on all AmeriCorps members to document their eligibility for in-
     service and post-service benefits. VSA entered erroneous hours in WBRS and did not
     review entries to ensure that data were correct. We questioned $5,725 in education
     awards earned by the members.

3.   VSA made catch-up living allowance payments to two members who started the
     program later than other members in PY 2002-2003 and one member in PY 2004-
     2005. Members who started service late received the same amount of living
     allowance as those who started service at the beginning of the year, except that living
     allowances for the late members were spread over fewer payments. VSA also made
     lump-sum living allowance payments to four members in PY 2003-2004 who finished
     service early.

     According to AmeriCorps Provisions (2002 ed.), Section B.11.b, Living Allowance
     Distribution, living allowances are designated to help members meet necessary living
     expenses incurred only while participating in the AmeriCorps Program. VSA
     understood this provision to mean that members were entitled to the full living-
     allowance amount stated in the member contracts, and that it would violate contracts
     if it did not pay full living allowances. VSA was also unaware that catch-up living
     allowance payments were not permitted. We questioned $2,473.




                                           17
 December 2, 2005


 Office of Inspector General
 Corporation for National and Community Service


                            INDEPENDENT AUDITORS’ REPORT ON
                            COMPLIANCE AND INTERNAL CONTROL


 We have audited costs claimed by the Commission to the Corporation for National and
 Community Service for the following awards and have issued our report thereon dated
 December 2, 2005. We conducted our audit in accordance with auditing standards generally
 accepted in the United States of America and generally accepted government auditing
 standards.

Program                               Award No.             Award Period          Audit Period
Administrative Grant                04CAHNM001            01/01/04-12/31/06 01/01/04-06/30/05
Professional Development and
   Training                          02PDSNM032           01/01/02-12/31/04 01/01/02-12/31/04
Professional Development and
   Training                         05PTHNM001            01/01/05-12/31/07     01/01/05-06/30/05
AmeriCorps Competitive              00ASCNM032            10/01/00-09/30/03     10/01/02-09/30/03
AmeriCorps Competitive              03ACHNM001            09/11/03-09/10/06     09/11/03-03/31/05
AmeriCorps Formula                  00ASFNM032            10/01/00-09/30/03     10/01/02-09/30/03
AmeriCorps Formula                  03AFHNM002            09/01/03-08/31/06     09/01/03-03/31/05

 INTERNAL CONTROL OVER FINANCIAL REPORTING

 In planning and performing our audit, we obtained an understanding of the Commission’s
 internal control over financial reporting to determine audit procedures for the purpose of
 expressing our opinion on the financial schedules and not to provide assurance on internal
 control over financial reporting. We noted matters involving internal control over financial
 reporting and its operation, however, that we consider reportable conditions. Reportable
 conditions involve matters coming to our attention relating to significant deficiencies in the


                                               18
design or operation of internal control over financial reporting that, in our judgment, could
adversely affect the Commission’s ability to initiate, record, process, and report financial
data consistent with assertions of management in the financial schedules (Findings 4 and 5
below).

A material weakness is a condition in which the design or operation of one or more of the
internal control elements does not reduce to a relatively low level the risk that misstatements
in amounts that would be material in relation to the financial schedules being audited may
occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. Our consideration of internal control over financial
reporting would not necessarily disclose all matters in the internal control structure that
might be reportable conditions and that are also considered material weaknesses. We
consider Finding 5 to be a material weakness.

COMPLIANCE WITH LAWS AND REGULATIONS

As part of obtaining reasonable assurance about whether financial schedules are free of
material misstatements, we performed tests of compliance with certain provisions of laws,
regulations, and awards, noncompliance with which could have a direct and material effect
on determination of financial schedule amounts. Providing an overall opinion on compliance
with these provisions was not an objective of our audit and, accordingly, we do not express
such an opinion. Test results disclosed instances of noncompliance that are required to be
reported under generally accepted government auditing standards and are discussed below
(Findings 1-4).

We sampled five program sites comprised of 116 members. Our findings are discussed
below.

FINDINGS

1.     The Commission did not have adequate procedures to ensure member eligibility.

The Commission did not ensure that subgrantees:

       •       Obtained adequate criminal background checks for members who had
               substantial, direct contact with children;

       •       Obtained adequate proof of member citizenship;

       •       Ensured that members were over the age of 18 or obtained parental consent;

       •       Had sufficient member positions available for funding; or

       •       Ensured that members met program site-specific high-school diploma and
               GED requirements.



                                              19
Criminal Background Checks

Three Commission subgrantees did not have documentation typically used by sites to verify
when a criminal background check was completed or received by the program site. Also,
subgrantees could not always provide documentation showing when investigations were
initiated. The Commission provided documentation of the State requirement to initiate a
background investigation on each member before placing the member in contact with
children. AmeriCorps Provision B.6.h, Criminal Record Checks, requires documentation of
a criminal background check to be maintained consistent with State law. Because the
Commission is allowed to follow State law, each site should maintain documentation to
support when a criminal background check was requested.

Member Citizenship

Three program sites could not support member citizenship for 13 members. 45 CFR §
2522.200, What are the eligibility requirements for an AmeriCorps participant?, requires
every AmeriCorps participant to be a citizen, national, or lawful permanent resident alien of
the United States. Two sites were unaware that a driver’s license and/or a Social Security
card were not acceptable proof of citizenship. One site could not locate a member’s file, and
therefore citizenship documentation was not available.

Parental Consent

Documentation of parental consent to participate in the program was not obtained by the
subgrantee for one member under the age of 18. AmeriCorps Provisions, B.6.g, Parental
Consent, requires individuals less than 18 years of age to provide written consent from a
parent or legal guardian before enrolling in the program. The subgrantee stated that the
application containing the parental consent was included in the member’s file; however, it
did not provide this documentation to the auditors.

Member Positions

Two program sites enrolled ten members in excess of the available “slots” allowed by the
Corporation. The Corporation approves each program site budget, which includes the
number of full- or part-time members each site can enroll. If a member leaves the program
early, program sites have the ability to replace that member. Program sites were, however,
claiming living allowance payments to members that exceeded available slots budgeted. The
program sites and the Commission explained to us that the Corporation enacted an
enrollment freeze, and the sites were instructed to enroll members but not input them into
WBRS, the system that records member activity. WBRS would not have allowed members
to be enrolled if the numbers exceeded the program site budget.




                                             20
High-School Diploma and GED Requirements

One program site required members to be high-school graduates or have GED equivalents.
One member met Corporation requirements but did not meet site requirements. Thus, the
program site enrolled a member who did not meet its own eligibility requirements.

Recommendation: We recommend that the Corporation ensure that the Commission:

       •      Obtains criminal background checks for all members and maintains
              documentation for each member; and revises its policies and procedures to
              require that supporting criminal background check documentation be
              maintained to verify that checks were initiated, received, and reviewed before
              members are allowed to have contact with children;

       •      Maintains adequate documentation to verify citizenship, parental consent,
              high-school diploma or self-certification, and eligibility for all members; and

       •      Revises its procedures to ensure that members enrolled at each site do not
              exceed available budget limits and meet site-specific eligibility requirements.

Commission Response:

       •      The Commission recognizes the importance of criminal background checks,
              and will revise its policy and procedures to require that subgrantees maintain
              documentation of criminal background checks. The Commission believes that
              the issue is related to compliance and therefore disagrees with the questioned
              costs resulting from missing background checks.

       •      The Commission has instituted a process to ensure that citizenship is verified
              by the local program and documentation is maintained in each member’s file.
              The Commission will stress the importance of this process with grantees
              through training and professional development with program staff. The
              Commission has also enhanced its monitoring procedure to ensure member
              eligibility by completing a Member File Checklist tool during program site
              visits. This detailed monitoring form addresses compliance issues, including
              background checks, member citizenship, proof of age, high school/GED
              requirements and enrollment status.

       •      The Commission provides annual training that includes significant attention to
              specific documentation requirements, and conducts random reviews of
              member files during site visits. The Commission will strengthen the program
              monitoring tools to ensure programs are in compliance at all times and that
              programs keep files for the appropriate timeframe under the required records
              retention guidelines.




                                             21
Auditors’ Comments: The Commission did not propose action to resolve the issue related to
member enrollment exceeding available budget limits. We believe actions taken by the
Commission will help resolve the other issues.

2.     The Commission did not have adequate procedures in place to ensure that
       subgrantees documented member activities, and that member living allowance
       payments were proper.

The Commission did not adequately document certain member activities in accordance with
AmeriCorps Provisions:

       •      Mid-term or final evaluations were not available for all members sampled, and
              some evaluations either did not have member or supervisory signatures or
              were not complete;

       •      Some enrollment or exit forms were submitted late or were not signed;

       •      Hours reported for some members were not supported by member time sheets,
              and member time sheets were missing or contained errors; and

       •      Members were paid catch-up or lump-sum living allowance payments.

We sampled four program sites. Our findings are discussed below.

Evaluations

The four program sites could not provide mid-term or final evaluations for a total of 18
members. Evaluations were either missing from member files, or entire member files could
not be found. Additionally, sites did not perform some mid-term evaluations but were unable
to explain to us why they did not. Members or supervisors did not sign 15 mid-term and 7
final evaluations for three of the four program sites to indicate that evaluations were
conducted in a timely manner. Finally, 48 final evaluations at all four program sites were
incomplete. A final evaluation must contain the number of completed service hours and a
statement regarding member performance.

Evaluations are necessary to ensure that members are eligible for additional service terms.
According to 45 CFR § 2522.220(d), Participant performance review, a participant is not
eligible for a second or additional term of service and/or for an AmeriCorps education award
without mid-term and final evaluations. Grantees also are required to conduct at least mid-
term and end-of-term evaluations of each member’s performance and document that the
member has:

       •      Completed the required number of hours;
       •      Satisfactorily completed assignments; and
       •      Met other performance criteria that were clearly communicated at the
              beginning of the service term.

                                             22
Enrollment and Exit Forms

The Commission did not ensure that subgrantees submitted all required enrollment and exit
forms in a timely manner. Specifically:

       •      36 member enrollment forms were not entered into WBRS within 30 days;

       •      21 exit forms were not entered into WBRS within 30 days;

       •      3 exit forms were unsigned by the members.

AmeriCorps Provisions, AmeriCorps Member Related Forms, requires that member
enrollment forms be submitted to the Corporation no later than 30 days after a member is
enrolled, and that member exit and end-of-term-of-service forms be submitted no later than
30 days after a member exits the program.

Member Service Hours

Member service hours recorded in WBRS were not always properly supported by member
time sheets. AmeriCorps, Financial Management Provisions, Time and Attendance Records,
requires that grantees keep time-and-attendance records for all AmeriCorps members to
document their eligibility for in-service and post-service benefits. The Corporation uses
time-and-attendance information in WBRS to track member status, and these data are the
basis for calculating education awards.

Member hours that were supported by time sheets varied from hours recorded in WBRS for
36 members. For 18 of these members, the hours recorded on time sheets exceeded WBRS
hours and 18 members had hours recorded on time sheets that were less than hours reported
in WBRS. For 8 of the 36 members, hours on the member time sheets did not support the
required number of hours to earn education awards. Subgrantees noted that hours recorded
on member time sheets could vary from hours reported in WBRS as the result of data-entry
errors when recording member hours in WBRS and member files missing time sheets. This
results in $14,062 of questioned education awards (as shown in Schedules A, C, and E).

Hours recorded on two members’ time sheets at one program site included time spent on
non-AmeriCorps activities. Additionally, time sheets at three program sites contained
corrections that were not initialed by the member or supervisor, contained corrections made
with white-out, were prepared in pencil, and were not signed. Also, some time sheets were
copies rather than originals. When pencil and white-out are used on time sheets and originals
are not maintained, it is difficult to determine if unauthorized alterations have been made.
When changes are made without initials, an audit trail does not exist to determine if the
changes were authorized.




                                             23
Member Living Allowance Payments

Two subgrantees made living allowance pay-outs to 28 members when they completed the
minimum number of service hours to earn the education award before the end of the program
term. Additionally, one subgrantee paid five members a catch-up payment when the
members started the program late. AmeriCorps Provisions Section B(11), Living
Allowances, In-Service Benefits, and Taxes, states that living allowances are designed to help
members meet necessary living expenses incurred while participating in the program.
Programs are not allowed to pay members on an hourly basis, and wages must not be based
on the number of hours a member serves.

Recommendation: We recommend that the Corporation ensure that the Commission
strengthens its program monitoring procedures to comply with grant requirements regarding
member activities, including:

       •       Complying with grant requirements for conducting member evaluations and
               retaining documentation;

       •       Documenting member enrollment and exit promptly and submitting this
               information to the Corporation on a timely basis;

       •       Recording member hours accurately and in accordance with program
               provisions;

       •       Ensuring that only eligible service hours are counted toward the member
               service requirement and education awards; and

       •       Ensuring that subgrantees calculate and pay living allowances in accordance
               with program provisions.

Commission Response: The Commission stated:

       •       The bi-weekly time sheets completed by the members include documentation
               of member activities;

       •       Program Officers test the bi-weekly time sheets for accuracy, signatures and
               documentation of member activities; and

       •       Uploading process of WBRS takes up a large portion of the 30-day window
               and results in late submission of enrollment forms.

Auditors’ Comments: The Commission noted their current policies and procedures, but did
not propose actions to address the recommendations.




                                              24
3.     The Commission did not have adequate subgrantee monitoring procedures.

The Commission performs routine site visits of subgrantees and reviews of subgrantee
documentation. The Commission did not always perform adequate reviews of procedures to
ensure that subgrantees claimed only allowable costs and ensure that subgrantees had
adequate financial management systems. Also, the Commission did not thoroughly
document procedures performed during Commission site visits.

Claiming Allowable Costs

The notes to Exhibit A and Schedules A through E describe questioned Federal costs of
$111,833 and related education awards of $54,398. These questioned costs consist of costs
claimed by subgrantees for which there is documentation that claimed costs were expended
in violation of laws, regulations, and specific conditions of awards, or costs that require
interpretation of allowability by the Corporation, or unsupported costs claimed that require
additional documentation to support allowability. While all costs would only be disclosed by
reviewing invoices and available documentation, some issues identified during our review of
claimed costs would be identified by conducting detailed reviews of subgrantee invoices.
These include the following three examples:

       •      One subgrantee claimed administrative costs in excess of five percent of total
              program costs. AmeriCorps Provisions B,13(e), Administrative Costs, states that
              administrative costs cannot exceed five percent of total Corporation funds
              actually expended;

       •      One subgrantee claimed costs in excess of 85 percent of member living
              allowances as Federal expenditures; and

       •      One subgrantee claimed in-kind match based on a predetermined estimate of
              in-kind labor and estimated market values for facilitating public relations and
              providing donated shoes.

Financial Management Systems

The Commission did not ensure that each subgrantee had an adequate financial management
system. In addition to unallowable and unsupported costs being claimed by subgrantees, we
noted that:

       •      Two subgrantees did not have adequate record retention policies;

       •      Two subgrantees did not have adequate labor distribution systems to support
              claimed staff labor costs. Labor costs were charged to the grant based on
              predetermined percentages and were not supported with after-the-fact labor
              distribution records, as required by applicable OMB cost principles; and




                                             25
       •       The Commission’s review of OMB Circular A-133 audit reports for one
               subgrantee did not include a reconciliation of amounts paid to the subgrantee
               and amounts reported on the audit report for AmeriCorps programs. CYFD
               performed an overall review of the OMB Circular A-133 report that analyzed
               total payments from CYFD to that subgrantee. It did not, however, review the
               AmeriCorps program specifically.

       •       We reviewed financial reporting at four sites. Of these four, two did not file
               eight financial reports and seven progress reports in a timely manner.

Documenting Site Visits

As noted above, the Commission performs periodic site visits to subgrantees. The
Commission follows a site plan to ensure that significant areas are covered. The site plan
includes a monitoring tool for Commission use; this tool does not, however, require that all
monitoring activities performed be documented. Additionally, some procedures on the
monitoring tool were inadequate:

       •       Procedures for reviewing hard copies of member time sheets to verify the
               adequacy of member service hours in WBRS were not included or
               documented;

       •       Procedures for reviewing orientation agendas and sign-in sheets were not
               included or documented;

       •       Procedures for ensuring that member service was in accordance with the
               intent of the grant were not included or documented;

       •       Procedures for ensuring that members were eligible to perform service were
               inadequate. The monitoring tool for citizenship contains an ambiguous
               “citizenship” criterion. The Commission often reviews Immigration and
               Naturalization I-9 forms to satisfy this criterion. The I-9 form allows review
               of a driver’s license, which is not adequate documentation of member
               citizenship eligibility; and

       •       Procedures did not exist to ensure compliance with AmeriCorps guidelines
               stating that members are entitled to receive living allowances only while in
               service.

Recommendation: We recommend that the Corporation ensure that the Commission:

       •       Strengthens subgrantee monitoring procedures to include more detailed
               reviews of allowable costs and documentation to ensure that subgrantees have
               adequate financial management systems.




                                              26
       •      Improves its monitoring procedures to better document activities performed
              during site visits.

Commission Response: The Commission noted that it has revised its monitoring procedures
to conduct separate fiscal and program monitoring site visits for each subgrantee. The
Commission will use the comprehensive Member File Checklist tool to document the
monitoring activities completed during the visits.

Auditors’ Comments: We believe the actions taken by the Commission will help to resolve
the issues.

4.     The Commission’s procedures to ensure compliance with all grant provisions
       were weak.

Several subgrantees did not comply with, or did not adequately document compliance with,
grant provisions on member contracts, health care requirements, and miscellaneous grant
requirements. Specifically:

       •      One subgrantee member contract did not contain required grievance
              procedures. Subgrantee personnel who created member contracts for
              AmeriCorps members were not aware that grievance procedures must be
              stipulated in the member contract. AmeriCorps Provision, B.7.b, Member
              Contracts, states that grantees must require members to sign contracts that, at
              a minimum, include grievance procedures.

       •      Two subgrantees could not locate member contracts for four members.
              AmeriCorps Provision, B.7.b, Member Contracts, states that grantees must
              require members to sign contracts. One subgrantee stated that the members
              completed the contracts, but it likely misfiled them. The second subgrantee
              lost the member file for one member and possibly misfiled the contract for the
              second member.

       •      One subgrantee provided (and claimed costs for) health insurance for part-
              time members. AmeriCorps Provisions, B.11.e, Health Care Coverage, states
              that grantees must provide health insurance to full-time members, and the
              Corporation will not cover health care costs for family members or part-time
              members. The subgrantee offered no explanation for providing unallowable
              health insurance.

       •      One subgrantee could not document that it provided health insurance to full-
              time members and could not explain why the documentation was unavailable.
              AmeriCorps Provisions, B.11 e, Health Care Coverage, states that grantees
              must provide health care to full-time members not otherwise covered by a
              health care policy at enrollment or who lose coverage during their service
              terms as a result of participating in the program or through no deliberate act of
              their own.

                                             27
       •       One subgrantee did not have a record-retention policy to require retention of
               supporting documentation for the minimum amount of time required by grant
               provisions. Also, the Commission’s record-retention policies did not comply
               with retention requirements. AmeriCorps Provisions, C.27, Retention of
               Records, requires that grantees retain all program and financial records for
               three years from the date of submission of the final FSR.

               Additionally, if an audit is started before expiration of the three-year period,
               the records must be retained until audit findings are resolved and final action
               is taken. Therefore, the Commission must either obtain all supporting
               documentation from each subgrantee and maintain those records for three
               years after grant closeout, or require subgrantees to do so.

Recommendation: We recommend that the Corporation ensure that the Commission:

       •       Includes all required elements in its member contracts and ensures that each
               subgrantee maintains a contract for each member;

       •       Strengthens controls to obtain approval from the Corporation for health care
               provided to part-time members, or ensures that costs are not claimed, and
               maintains documentation as evidence that health insurance was either
               provided to all full-time members or was not necessary; and

       •       Requires that subgrantees revise record-retention policies to comply with
               grant provisions.

Commission Response: The Commission stated it will:

       •       Require each subgrantee to submit a copy of the member contract for pre-
               approval to ensure the contracts meet requirements of the AmeriCorps
               Provisions;

       •       Strengthen controls to obtain approval from the Corporation for health care
               provided to members; and

       •       Require that subgrantees retain program and financial records for three years
               from the date of submission of the final FSR.

The Commission also stated that its annual training will address the grant provisions and the
comprehensive monitoring/site visits will reinforce compliance with grant provisions.

Auditors’ Comments: We believe actions taken by the Commission will help the
Corporation to resolve the issues.




                                               28
5.     The Commission’s financial management system was not adequate to account
       for and support all costs claimed.

The Commission did not have an adequate financial management system to support all
claimed costs and ensure that claimed costs met grant requirements. Specifically, the
Commission:

       •      Claimed unallowable and unsupported costs under its PDAT grants;

       •      Had an inadequate labor distribution system; and

       •      Did not submit all reports in a timely manner.

Unallowable and Unsupported Costs

The Commission incurred contract-service expenses and labor costs outside of the older
PDAT grant that are allocable and allowable to the subsequent PDAT grant. Additionally,
the Commission processed an adjusting journal entry to allocate costs incurred that exceeded
the PDAT grant award to the subsequent grant award. These issues are discussed in Notes 1
and 2 to Exhibit A.

Inadequate Labor Distribution System

The Commission stated that claimed labor costs for the administrative grant represented
administrative support from CYFD. Costs charged were based on predetermined, estimated
effort percentages. OMB Circular A-87, Attachment B, Paragraph 11(h), Support of salaries
and wages, requires that salary distributions be based on after-the-fact personnel activity
reports. These reports are to be signed by each employee and must account for all time
worked.

Untimely Grant Reporting

Three of the grants we reviewed were required to be closed before our audit period. All three
grant closeout packages were submitted between ten days and seven months late. The
Commission noted that the closeout packages need to include a final accounting of claimed
costs which delays package completion. The Commission is responsible for filing FSRs
within 30 days after the reporting period, and submitting final FSRs and closeout packages
within 90 days after the end of the grant period.




                                             29
Additionally, the Commission filed 10 FSRs late, as follows:

                                                            FSR
       Program                        Grant Period      Submitted Late      Days Late
       Administrative Grant             2004-2005               2            10 and 12
       PDAT                             2002-2004               2           24 and 518
       AmeriCorps Competitive           2002-2003               1                55
       AmeriCorps Competitive           2003-2005               2           40 and 90
       AmeriCorps Formula               2002-2003               1                55
       AmeriCorps Formula               2003-2005               2            40 and 96


Recommendation: We recommend that the Corporation ensure that the Commission:

       •      Develops procedures to adequately document and record in-kind contributions
              from third parties, properly values all matching costs, and ensures that all
              adjusting journal entries represent allowable costs in the period charged;

       •      Revises its labor distribution system to adequately support all claimed labor
              costs in accordance with applicable OMB circulars;

       •      Strengthens policies and procedures to ensure that financial, progress, and
              closeout reports are submitted in a timely manner; and

       •      Develops procedures to monitor grant match requirements and ensures that
              requirements are being met throughout the grant award.

We also recommend that the Corporation review costs charged to the Commission’s PDAT
grants to ensure that all claimed costs were charged to the correct grant award.

Commission Response: The Commission noted it has:

       •      Developed an improved tracking system to adequately document and record
              values related to match costs, including in-kind contributions from third
              parties;

       •      Revised its labor distribution system to correctly code and support claimed
              labor costs; and

       •      Instituted an internal system to ensure that all reports are submitted in a timely
              manner. The system will also monitor match to ensure that the Commission
              meets match requirements throughout the grant award period.




                                              30
The Commission has developed these improved systems in conjunction with CYFD, which
maintains the Commission’s financial management system. The Commission offices are in
Albuquerque and CYFD is located in Santa Fe.

Auditors’ Comments: We believe actions taken by the Commission and CYFD will require
extensive coordination and cooperation between these two entities to help the Corporation
resolve these recommendations.

This report is intended for the information and use of the OIG, the Commission, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


COTTON & COMPANY LLP




Sam Hadley, CPA
Partner




                                             31
             APPENDIX A

COMMISSION’S RESPONSE TO AUDIT REPORT
             APPENDIX B

CORPORATION’S RESPONSE TO AUDIT REPORT
